  Office of Inspector General

       Audit Report

FAA AND INDUSTRY ARE ADVANCING THE
AIRLINE SAFETY ACT, BUT CHALLENGES
REMAIN TO ACHIEVE ITS FULL MEASURE
       Federal Aviation Administration

        Report Number: AV-2013-037
        Date Issued: January 31, 2013
                                                                    Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA and Industry Are Advancing                                          Date:    January 31, 2013
           the Airline Safety Act, but Challenges Remain
           To Achieve Its Full Measure
           Report No. AV-2013-037
           Federal Aviation Administration

  From:    Jeffrey B. Guzzetti                                                          Reply to    JA-10
                                                                                        Attn. of:
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The February 12, 2009, crash of Colgan Air flight 3407 highlighted the need for
           improvements in pilot training, hiring and qualification programs, and ensuring
           consistent safety standards between carriers. Congress and the Federal Aviation
           Administration (FAA) took swift action following the crash to address these
           issues, culminating in the August 2010 passage of the Airline Safety and FAA
           Extension Act 1 (the Act). Effectively implementing the Act’s requirements is key
           to improving safety in commercial airline travel by raising standards in pilot
           training and performance, as well as advancing voluntary programs that yield
           critical safety information.

           The Ranking Members of the House Committee on Transportation and
           Infrastructure and its Subcommittee on Aviation, joined by the Chairmen and the
           Ranking Members of the Senate Committee on Commerce, Science, and
           Transportation and its Aviation Subcommittee, requested that we conduct a review
           of FAA and industry’s efforts to enhance safety in response to the Colgan
           accident. Accordingly, our objectives were to (1) examine FAA and industry
           progress in implementing elements of the Act and (2) identify any challenges to
           completing these actions.

           We conducted this review in accordance with generally accepted Government
           auditing standards. Exhibit A details our scope and methodology.

           1
               Airline Safety and Federal Aviation Administration Extension Act of 2010, Pub. L. 111-216, August 1, 2010.
                                                                                                                        3


RESULTS IN BRIEF
While FAA has implemented many elements of the Act, the Agency and industry
have not yet achieved the full measure of the Act’s intended safety enhancements.
FAA has made considerable and important progress advancing voluntary safety
programs, improving pilot rest requirements, and establishing better processes for
managing safety risks. However, FAA has not provided sufficient management
attention or assistance to smaller carriers for meeting new safety standards, or
followed through on its commitment to help these carriers with safety program
development and support. For example, only 12 percent of small carriers 2 have
flight data recording programs that monitor aircraft performance, compared to
more than 90 percent of large carriers. Until FAA takes a more focused approach
working with and assisting smaller carriers, the full safety benefits associated with
these programs will not be realized.

FAA faces significant challenges to fully implement the Act, such as meeting
timelines for rulemaking efforts while balancing competing interests of
stakeholders involved with controversial safety measures. For example, FAA is
experiencing lengthy delays and considerable industry opposition in issuing and
finalizing rules that will enhance pilot qualification standards, revise crew training
requirements, and establish mentoring and professionalism programs. Further,
while FAA is on target with the initial development phase of a new, centralized
electronic pilot records database, it remains uncertain when it will be implemented
and what level of information it will contain. Three primary challenges exist with
the new database: retaining and standardizing historical records, transitioning from
current requirements, and incorporating driving records from the State level.
Finally, FAA has not provided the level of education, outreach, and guidance
needed for air carriers to implement new safety programs, such as mentoring,
leadership, and professional development committees. As a result, industry efforts
to enhance aviation safety in accordance with the Act are limited.

We are making a series of recommendations to FAA to improve its efforts in
implementing the Act.

BACKGROUND
The 2010 Act included 16 provisions to improve airline safety and pilot training
with milestones spread over a 3-year period (see exhibit B for further details and
the current status of FAA’s efforts in each section of the Act). 3 In addition to the
heightened standards for pilots, the Act also required FAA to perform annual,

2
  Air carriers having 15 or fewer aircraft, as defined by FAA’s ASAP & FOQA Implementation Plan per Section 214 of
the Act.
3
  Sections of the Act pertaining to inspector staffing, pilot fatigue, and code sharing are not included in this audit, as
they have been addressed by other recently completed or ongoing OIG projects.
                                                                                                                    4


random, onsite inspections of regional air carriers that contract with other air
carriers to ensure their continued compliance with safety standards.

Additionally, the Act also required that FAA develop a rule that would require all
Part 121 air carriers to implement Safety Management Systems (SMS). The
system, which is currently voluntary, provides air carriers with a comprehensive
process for managing safety risks and integrating safety activities into normal,
day-to-day operations. Additionally, the Act included other important initiatives
that FAA did not complete during the Agency’s Call to Action on Airline Safety
and Pilot Training, 4 such as developing mentoring and professional development
programs for pilots, and following up with air carriers on efforts to adopt
voluntary safety programs. As required by the Act, FAA provided Congress with a
report on air carrier use of three Voluntary Safety Programs that the Agency
oversees: 5

    • Aviation Safety Action Program (ASAP)—A joint FAA/industry
      program that allows aviation employees to self-report safety violations to
      air carriers and FAA without fear of reprisal through legal or disciplinary
      actions.
    • Flight Operational Quality Assurance (FOQA)—A program for the
      routine collection and analysis of digital flight data generated during
      aircraft operations.
    • Advanced Qualification Program (AQP)—A voluntary alternative to
      traditional pilot training regulations that replaces programmed hours with
      proficiency-based training, and incorporates data-driven processes enabling
      air carriers to refine training based on identified individual needs.

The Act further required FAA to modify the requirement for an Airline Transport
Pilot (ATP) certificate 6 as well as which pilots are required to hold the ATP. The
Act also called for the Agency to establish a new Pilot Records Database (PRD)
that air carriers are expected to access and review qualifications and past
performance data before hiring pilots.

Finally, this year, as mandated by the Act, FAA updated its flight and duty time
regulations for Part 121 7 air carriers to better ensure pilots are rested when they
fly—a significant achievement for the Agency given that these updates were the

4
  FAA’s Call to Action Plan, announced on June 24, 2009 in response to the Colgan accident, consisted of 10 short- and
mid-term initiatives to enhance pilot performance and training, increase air carrier participation in voluntary safety
programs, and expand pilot records review. FAA also set goals to develop new safety oversight guidance to its
inspectors, issue rulemakings on pilot fatigue and training, conduct regional safety forums to discuss industry best
practices, and develop programs addressing pilot professionalism.
5
  FAA’s Voluntary Safety Programs report to Congress (Response to P.L. 111-216, Sec. 213, dated January 28, 2011).
6
  14 CFR Part 61,Subpart G – Airline Transport Pilot, Section 153, Eligibility Requirements.
7
  14 CFR Part 121, Operating Requirements, Domestic, Flag, and Supplemental Operations.
                                                                                 5


first modifications to the regulations since 1985. Unlike the old rules—which
included different rest requirements for domestic, international, and unscheduled
flights—the new regulations establish one set of rules for commercial passenger
carriers that are based on scientific factors, such as the time of day pilots begin
their first flight, the number of scheduled flight segments, and the number of time
zones crossed.

FAA HAS MADE PROGRESS WITH IMPLEMENTING KEY
ELEMENTS OF THE ACT, BUT SAFETY ADVANCEMENTS AT
SMALLER AIR CARRIERS HAVE BEEN LIMITED
FAA has successfully promoted use of new voluntary safety programs at larger air
carriers and has nearly completed its efforts to issue a final rule on SMS. Despite
this progress, the Agency has not sufficiently targeted assistance to smaller air
carriers who are furthest behind in developing new programs. FAA’s efforts to
advance these programs have been hindered by, among other things, the Agency’s
inability to link its budget to planning the advancement of safety programs and
address concerns regarding whether these programs would be scalable to carriers
of all sizes.

FAA Has Helped To Increase Use of Voluntary Safety Programs,
but Work Remains To Advance These Programs at Smaller Air
Carriers
Overall, FAA and industry have made significant progress in advancing voluntary
safety programs at mainline and regional air carriers; however, work remains to
implement these programs to the same extent at smaller carriers. As of January
2012, FAA data show a continued rise in voluntary safety program use—70
percent of Part 121 air carriers have at least one program, up from 59 percent
2 years ago. Further, for the same time period, 47 percent of air carriers have
multiple programs, compared to 36 percent 2 years ago. As shown in figure 1
below, the highest concentration of new growth for these air carriers has been with
the ASAP and FOQA programs.
                                                                                                                                6


Figure 1. Increase in Voluntary Safety Program Participation

                                    100%
                                                                  Dec-09         Jan-12
                                    90%
 Percent of Part 121 Air Carriers
                                    80%
                                                 68%                                                    70%
                                    70%
                                           57%                                                    59%
                                    60%
                                    50%                                                                                  47%
                                                                  43%
                                    40%                                                                            36%
                                                            31%
                                    30%                                              22%
                                                                               18%
                                    20%
                                    10%
                                     0%
                                            ASAP             FOQA               AQP           At least one    More than one
                                                                                            voluntary safety voluntary safety
                                                                                                program          program

Source: OIG analysis of FAA data

Despite overall gains at Part 121 air carriers, implementation of voluntary safety
programs has lagged at smaller air carriers. While all large carriers with more than
50 aircraft in their fleet have an incident reporting system (ASAP), the system has
been adopted by only 41 percent of small carriers with 15 or fewer aircraft, as
shown in table 1. Similarly, just 7 percent of these small carriers have advanced
qualification programs for pilot training, compared to more than 50 percent of
large carriers.

Table 1. Air Carrier Voluntary Safety Program Participation
Program                                          Number of          Large              Medium                 Small
                                                 Carriers           Carriers           Carriers               Carriers
                                                 Participating      (more than 50      (16-50 aircraft)       (15 or fewer
                                                                    aircraft)                                 aircraft)
Aviation Safety                                  60 of 88           24 of 24           19 of 23               17 of 41
Action Program                                   (68%)              (100%)             (83%)                  (41%)
Flight                                           38 of 88           22 of 24           11 of 23               5 of 41
Operational                                      (43%)              (92%)              (48%)                  (12%)
Quality
Assurance
Advanced                                         19 of 88           13 of 24           3 of 23                3 of 41
Qualification                                    (22%)              (54%)              (13%)                  (7%)
Program

Source: OIG analysis of FAA data as of January 2012
                                                                                     7


Smaller carriers are particularly challenged with implementing FOQA because the
program depends upon successful installation of aircraft flight monitoring
equipment to report safety data back to the air carrier. The technology to collect
and analyze flight data is not available for all aircraft types and fleets used by Part
121 air carriers. Even in cases where it is available, it can be very costly for small
carriers to install the equipment on their aircraft. Three of four air carriers we
asked that did not already have a FOQA program in place stated that high costs
was the primary reason for not moving forward with a program—either they could
not afford to purchase and install flight data equipment for their aircraft, or the
cost of data analysis was prohibitive. Additionally, while small air carriers with 15
or fewer aircraft make up the largest group of Part 121 carriers, only 12 percent
have a FOQA program, as shown in figure 2.

Figure 2. FOQA Use at Part 121 Carriers
        45
        40
                                                                   41
        35
        30
        25                 92%
        20           24                     23
                            22
        15
                                                  48%
        10
                                                   11                     12%
         5
                                                                           5
         0
                 Large Air Carriers     Medium Air Carriers     Small Air Carriers
                          Part 121 Carriers (by fleet size group)
                          121 Carriers with FOQA (by fleet size group)
Source: OIG analysis of FAA data

The relative lack of progress at smaller air carriers is also due in part to the fact
that FAA lacks a focused strategy to assist these carriers, such as providing best
practices and guidance in implementing voluntary safety programs. The Act
required FAA to develop a plan to help establish ASAP and FOQA programs at
smaller air carriers. To carry out this requirement, FAA developed a plan and
proposed improving existing ASAP tools and guidance, hosting information
sharing meetings with industry, and potentially conducting an additional FOQA
demonstration project. However, FAA has not fully implemented this plan and,
citing a lack of funding, has not been able to carry out the FOQA demonstration
                                                                                   8


project that may have illustrated the cost effectiveness and feasibility of this
program to smaller air carriers.

FAA Has Assisted Larger Air Carriers in Implementing SMS, but
Concerns Remain That the Program May Not Fully Align With
Smaller Air Carrier Operations
FAA fell short of meeting an August 2012 final deadline for issuing the SMS rule,
but has taken steps to assist air carriers in developing these systems. In 2007, FAA
initiated an SMS Pilot Project to promote voluntary air carrier adoption of SMS.
The Pilot Project allows FAA and air carriers to provide input in developing
guidance, implementation strategies, and share best practices. Currently,
95 percent of all Part 121 air carriers (80 of 84) are participating in the Pilot
Project.

Despite this success, some carriers remain concerned about the current proposed
rule, especially smaller carriers, who have had the least success implementing
SMS to date. In fact, 3 of the 4 air carriers that are not yet participating in FAA’s
SMS Pilot Project are smaller air carriers (15 or fewer aircraft). Industry
representatives have expressed concerns that the final SMS rule will not be
scalable for air carriers of varying size and operations, making it more costly and
difficult for smaller carriers to integrate into their operations.

Furthermore, NTSB and air carriers are concerned about public disclosure of
SMS-collected data. Most of these concerns focus on whether the data can be used
for other purposes, such as litigation, and the current proposed rule does not
address this issue. NTSB is also concerned that air carrier employees may be
discouraged from providing important safety information due to a lack of SMS
data protection.

FAA AND AIR CARRIERS MUST OVERCOME KEY CHALLENGES
IN MEETING ACT PROVISIONS ON PILOT TRAINING AND
SAFETY ISSUES
Significant challenges remain as FAA continues to work towards meeting the
remaining requirements of the Act. First, FAA has not succeeded in meeting
milestones for issuing key Act-mandated rules on pilot screening and
qualifications, training, and mentoring and leadership programs. In addition, the
Agency lacks a clear long-term strategy with detailed milestones for transitioning
to a new pilot records database and addressing data privacy concerns. Finally, poor
communication between FAA and industry is impeding progress on several
initiatives.
                                                                                                                    9


FAA Has Faced Difficulties in Issuing Key Rulemakings Within
the Deadlines Mandated by the Act
FAA is behind schedule on implementing key rulemaking initiatives to enhance
pilot qualifications and training standards, and to establish mentoring and
leadership programs. A key challenge FAA faces in achieving the full measure of
the Act is to implement mandated rules within the established milestones.
Rulemaking activities are complex, require extensive public notification and
comment periods, and can encounter significant industry opposition. In addition to
notice and comment periods required by law, FAA must also conduct detailed
analyses of each rule’s economic impact and coordinate with stakeholders. As a
result, as shown in table 2, FAA efforts to issue Act-mandated rules are delayed.

Table 2. Missed Pilot Training, Qualification, and Mentoring
Milestones
    Act Section                                Product                Deadline          Milestone Status
    206 Mentoring                              NPRM                   8/1/2011          Overdue & Not Complete
    207 Crew Pairing                           Study                  8/1/2011          Completed Late
                                                              8
    208 Training Recommendations               ARC Report             11/30/2011        Completed Late

    209 Crew Training                          ARC Formation          9/30/2010         Completed Late

    209 Crew Training                          ARC Report             8/1/2011          Completed Late

    209 Crew Training                          Final Rule             10/1/2011         Overdue & Not Complete

                                                                                        Completed Late
    216 Pilot Qualifications                   NPRM                   1/28/2011

    216 Pilot Qualifications                   Final Rule             8/1/2012          Overdue & Not Complete

Source: OIG analysis of FAA-reported data & Act requirements

FAA is overdue and has not completed three critical rulemaking projects aimed at
raising pilot standards: (1) pilot qualifications, (2) pilot training, and (3) pilot
mentoring, leadership, and professional development. Successful implementation
of such rules depends on FAA’s ability to address air carrier concerns and work
though the regulatory process in a timely manner, which has presented challenges
for the Agency.

Pilot Qualifications. FAA is behind schedule in meeting the Act’s requirement to
substantially raise airline pilot qualifications. FAA expects to issue a final rule by
August 2013—1 year after the Act’s deadline. As mandated by the Act, FAA’s

8
  FAA formed multiple Aviation Rulemaking Committees (ARCs) comprised of aviation experts from FAA and
industry as required in specified sections of the Act. These ARCs were responsible for issuing reports to FAA and
Congress.
                                                                                                                    10


proposed rule (issued in February 2012) would require all Part 121 pilots to hold
an Airline Transport Pilot (ATP) certificate, 9 which is currently required only for
Pilots-in-Command (captains). As shown in table 3, first officers would need
1,500 hours of flight time to obtain an ATP certificate—six times the current
minimum of 250 hours needed for a commercial pilot’s certificate.

Table 3. Minimum Requirements for First Officers in Part 121 Air
Carrier Service

                           Pilot Certificate           Total Flight Hours                 Type Rating         Age

 Current
                           Commercial                  250*                               None                18
 Requirements

                           ATP                         1500                               Yes                 23
 Proposed
 Requirements                                          750 with military flight
                           Restricted ATP              experience or 1,000 with           Yes                 21
                                                       4-year aviation degree
* This can be reduced to 190 hours if the pilot completes specialized flight training.
Source: OIG analysis of 14 CFR 61.153, 61.159, 61.129, and Pilot Certification and Qualification
Requirements NPRM

To provide some flexibility, FAA’s proposed rule would also allow pilots with a
4-year aviation degree or military flight experience to obtain a “restricted” ATP
certificate as an alternative to the 1,500 hour requirement. 10 However, air carrier
representatives remain opposed to the proposed rule because they feel a pilot’s
quality and type of flying experience should be weighted more heavily than the
number of flight hours.

FAA’s delayed rulemaking is a particular concern because, under the terms of the
Act, the requirement that all pilots possess ATP certificates will automatically take
effect if FAA cannot issue a final rule by August 2013—without the additional
flexibility of the restricted ATP certificate option provided in FAA’s proposed
rule. As a result, air carriers may not have adequate time to make necessary
adjustments to their pilot training and qualification programs to meet the new
requirements by the Act’s deadline.

FAA has also not taken steps to ensure carriers and FAA inspectors are ready to
transition to these new pilot qualification requirements. For example, at two
regional air carriers we visited, more than 75 percent of current first officers did
not have an ATP certificate. Yet, neither carrier had developed a plan to ensure

9
   An Airline Transport Pilot (ATP) Certificate is the highest level of pilot certification. Pilots certified as ATP are
authorized to act as pilot-in-command of an aircraft in commercial airline service. Additional eligibility requirements
are contained in 14 CFR 61.153.
10
   In addition to an ATP or restricted ATP certificate, FAA’s proposed rule would require all first officers to have an
aircraft type rating, which involves additional training and testing specific to the airplanes they fly.
                                                                                                              11


these pilots will meet the enhanced requirements by the deadline, nor had local
FAA inspectors followed up with these carriers to assess their ability to comply.
Additionally, FAA inspectors will have an increased workload as they perform
new ATP certificate examinations for first officers. As the deadline approaches, it
will be important for FAA to ensure its workforce and carriers can meet the
impending demand for new certification testing.

While some air carriers have moved forward with new ATP programs for first
officers, they encountered obstacles in obtaining FAA approval for the program. A
regional air carrier we visited attempted to establish a program for first officers to
obtain advanced certification. Although the local FAA office initially approved the
program, the Agency rescinded the approval 1 day before it was set to launch
because FAA had not issued national guidance on developing such programs.
Almost 11 months later, the principal inspector approved the same program and
the carrier was able to incorporate it into its training manual.

Finally, while FAA’s pilot qualification proposed rule satisfies most of the Act’s
requirements to increase the minimum standards needed for commercial pilots, it
may fall short in ensuring sufficient pre-employment screening. For example, the
Act states that applicant pilot screening must include an assessment of skills,
aptitudes, airmanship, and suitability specific to each air carrier’s operations. The
proposed rule focuses on the requirements for obtaining an enhanced ATP
certificate. The rule does not, however, specify how carriers should determine
whether the pilot’s background and experience is appropriate and would allow
them to function effectively in the carrier’s operating environment.

Pilot Training. FAA is more than 15 months overdue on issuing a final rule
revising pilot training requirements and efforts have been considerably delayed
due to significant industry opposition. This is an important safety initiative that
will require pilot training programs to use flight simulators for scenario-based
training and enhance pilots’ ability to work together during emergencies.

In January 2009, FAA issued a proposed rule; however, industry opposed that the
rule imposes overly prescriptive training hours rather than basing pilot training on
skills most needed to safely perform flight operations. This prompted FAA to
issue a second proposed rule in May 2011. The revised proposal requires more
thorough ground and flight training for pilots on how to recognize and recover
from stalls, 11 as well as remedial training for pilots who perform poorly in
training. This initiative has been significantly delayed, as FAA reviewed
comments on the revised proposal for more than 8 months before submitting the
appropriate documents in June 2012 to advance the rulemaking process.

11
   Aerodynamic stalls—such as the one experienced by the airplane involved in the Colgan accident—occur when the
airflow over the wing is disrupted and the aircraft’s lift is quickly reduced.
                                                                                                                 12


Pilot Mentoring, Leadership, and Professional Development. FAA is more
than 17 months overdue in meeting a mandated timeline to issue a proposed rule
requiring that air carriers establish pilot mentoring, leadership programs, and
professional development committees to improve pilot performance. 12 FAA
intends to issue a proposed rule that would reinforce safe flying practices, but the
proposed rule has encountered a lengthy delay, due in part to challenges in
developing an appropriate balance between the costs and benefits of these
programs. For example, regional air carrier officials expressed concerns that a
mentoring program would have to be scaled to their business model and that pilot
turnover could outweigh the benefits of establishing these programs. 13 FAA has
been working to address industry comments and resolve cost-benefit balance
issues.

FAA’s efforts to issue a proposed rule establishing pilot mentoring and
professionalism programs at air carriers are behind schedule, and air carriers are
hesitant to establish these programs. For example, seven of nine carriers we visited
did not have formal mentoring programs, and none had professional development
programs for their pilots. Without FAA guidance, air carriers view developing
programs ahead of final rulemakings as risky and they are reluctant to allocate
resources to implement these new safety programs.

FAA Lacks a Clear, Long-Term Strategy for Transitioning to a
New Centralized Electronic Pilot Records Database
FAA has yet to make long-term implementation decisions on the new electronic
database for pilot records. These include decisions about how to incorporate data
from different sources and transition to the new system while ensuring data
integrity. According to the Act, the database should include records not only from
FAA, but from air carriers and the National Driver Register (NDR). 14 FAA
achieved an early milestone to begin developing the electronic database for pilot
screening by October 2010. Additionally, in July 2011 an advisory committee
provided FAA with recommendations on the database’s design and functionality.
However, the pilot records database is only in the early stages of development and
the Act did not establish a milestone for implementation.



12
   Pilot performance—a longstanding NTSB safety concern—was cited in 7 of the 10 major accidents that occurred
over the last decade, indicating that the quality of training, professionalism, and mentoring is important to safety.
Several NTSB reviews of airline accidents (including the Colgan accident) cite poor pilot performance—such as poor
decision-making, inadequate aircraft control, improper flying techniques, and a disregard for operating procedures—as
a high-ranking causal factor.
13
   In 2011, we reported that regional carriers were not pursuing mentoring opportunities for their pilots. OIG Report
Number AV-2012-027, “New Approaches Are Needed to Strengthen FAA Oversight of Air Carrier Training Programs
and Pilot Performance,” December 20, 2011.
14
   NDR is a central information system that allows States to electronically exchange information on licensed drivers
through a computerized network.
                                                                                                         13


Further, the Agency projects that the launch of the database will not occur before
2014, and pilots are opposed to many facets of the new records database due to
concerns over the subjectivity and relevance of potential data. As a result of the
delayed implementation and industry concerns, it is unclear when the new system
will achieve the goal of enhancing the screening process of newly hired pilots. To
meet this goal, FAA must overcome three key challenges.

     • First, FAA must define the level of detail to be captured from air carrier
       pilot training records, such as whether recurrent flight training will be
       included. The Act stipulates that comments and evaluations made by the
       check airman 15 be included in the database; however, industry is highly
       protective of these data and opposes including them in the new database.
       Consequently, some FAA officials are concerned that carriers may instruct
       pilot examiners not to record comments during evaluations so that they
       would not be included in the database. Additionally, FAA must determine
       how to include historical air carrier pilot training records into its new
       system. Incorporating standardized historical records from various air
       carrier and other sources will be difficult because information varies based
       on differences in air carrier training programs and because record retention
       policies vary from 5 years to indefinitely, depending on the carrier.

     • Second, the Agency will have to develop a strategy to transition to the new
       database while also ensuring air carriers receive all available data in the
       interim before the Agency issues its final rule and launches the database.
       FAA’s 2009 Call to Action on Airline Safety and Pilot Training called on
       carriers to obtain more comprehensive records on pilots prior to hiring.
       However, we reported in December 2011 16 that FAA lacks a centralized
       process to receive and respond to carriers’ requests for pilot records. FAA
       may mitigate this problem once the database is launched. Since database
       implementation is years away, we are concerned whether air carriers can
       currently obtain all relevant information on pilots before they are hired.

     • Finally, FAA identified multiple challenges in accessing records from the
       NDR and incorporating them into the database. Specifically, FAA must
       decide how to ensure the accuracy of NDR records entered into the
       database because searches are based on names and physical characteristics
       of the pilots (height, age, eye color, etc.) that allow for inaccuracies in
       matching. For example, FAA officials stated that during a 1-week test
       period, FAA requested NDR information on 3,000 pilots and received
       possible matches for approximately 900 of them. However, after obtaining

15
  Pilots who are employed by air carriers to evaluate pilot proficiency.
16
  OIG Report Number AV-2012-027, “New Approaches Are Needed to Strengthen FAA Oversight of Air Carrier
Training Programs and Pilot Performance,” December 20, 2011.
                                                                                                             14


         the actual records from the States to verify the match, less than 20 of the
         possible 900 matches were valid. Additionally, FAA must assess whether
         the pilot records database requirements to maintain data for the life of the
         pilot would conflict with each State’s reporting policies that require the
         records to be expunged after a certain period.

FAA states that rulemaking will be necessary to fully develop and implement the
intricacies of this electronic system and is in the preliminary stages of writing a
proposal. However, major system changes may arise as a result of industry
comments, making it uncertain what level of detail the database will contain, how
the database can be used, and ultimately when it will be implemented.

FAA Has Not Provided the Level of Education, Outreach, and
Guidance Needed for Industry To Implement New Safety
Programs
FAA has not adequately communicated with its own field offices or with industry
on the status of new rules or provided air carriers with sufficient guidance to
incorporate new safety requirements. FAA engaged a cross-section of Government
and industry representatives and created six ARCs to develop recommendations on
multiple initiatives, such as identifying and promoting best practices in pilot
training and developing the pilot records database. However, the Agency has not
informed its field offices or airlines of many of the ARCs’ outcomes, including the
sharing of best practices and the impact of ARC reports on pending rulemakings,
or engaged in effective outreach efforts for new safety programs other than SMS.
For example, none of the nine field offices we visited had received information
from FAA Headquarters on the Agency’s progress in developing pilot mentoring,
professional development, and leadership programs.

Further, FAA did not follow up to ensure air carriers properly implemented the
guidance it provided. For example, while FAA issued guidance 17 for retaining and
submitting pilot training records for the new electronic pilot records database, it
did not follow up to ensure air carrier compliance. Four of six carriers we visited
had not clarified their policies to reflect this change. As a result, important details
concerning pilot training and proficiency may be lost and not available for air
carriers to use in future hiring decisions.

FAA also did not provide clear instructions for field inspectors on how to perform
the random onsite safety inspections of regional airlines as required by the Act.
While the Agency did issue guidance to local offices, 18 it did not clearly

17
   InFO 11014: Retention of Pilot Records for the Pilot Records Database (PRD)—voluntary guidance from FAA to air
carriers recommending policies on pilot records retention.
18
   Notice 8900.137 Flight Standards Service (AFS) Geographic Surveillance Program for 14 CFR Parts 121 and 135 –
Phase I.
                                                                                                                 15


communicate the objectives of the inspections, how to perform them, or the
intended benefits, leading to inconsistent data collection and varying levels of
FAA surveillance at air carriers. The guidance required just one random onsite
inspection to be performed per air carrier, 19 and as of June 2012, 1,052 total
inspections had been completed at 51 air carriers. However, a lack of clear
instructions resulted in widely differing implementation of these inspections and
ineffective use of inspection resources. For example, almost half (464) of these
inspections were completed at 3 air carriers.

Additionally, some air carriers that had moved forward with new voluntary safety
programs encountered obstacles in obtaining FAA approval. One air carrier we
visited faced a lengthy delay from its local FAA office in the approval of a new
incident reporting system (i.e., ASAP). According to air carrier representatives,
there was almost a 7-month gap between when the air carrier and labor
organization signed the program approval letter and when FAA inspectors
provided the final approval for program implementation. Air carrier officials
identified a lack of local inspector resources and knowledge about the safety
program as the reasons for the delay.

CONCLUSION
FAA plays an integral role in maintaining the excellent safety record of the
National Airspace System. The Agency acted swiftly to address safety concerns
highlighted by the 2009 Colgan crash, and FAA and air carriers have made
commendable progress in meeting new requirements of the Airline Safety Act.
FAA still faces several challenges, however, in updating pilot training and
leadership programs, developing screening and qualification standards, and
ensuring carriers have the data they need to make sound hiring decisions. To
effectively implement these initiatives in a timely manner, FAA must balance
industry concerns with a sustained commitment to oversight. Nonetheless, until
FAA establishes final rules on new safety standards and focuses management
attention on assisting smaller carriers with establishing new programs, the Agency
cannot be assured that momentum will be sustained in implementing these
initiatives.




19
   Only Part 121 air carriers who performed contracted flights with other Part 121 air carriers were subject to these
inspections.
                                                                                  16


RECOMMENDATIONS
We recommend that FAA:

1. Fully implement the Act-required ASAP and FOQA plan that assists smaller
   carriers in developing these safety programs.

2. Determine how many Part 121 pilots currently do not meet the heightened
   qualification standards required by the Act, and assess the data for the potential
   impact on FAA and air carrier operations.

3. Develop and communicate with key stakeholders the status of major
   milestones, including the proposed rule, to improve timeliness and
   accountability for implementing the new Pilot Records Database.

4. Require inspectors to determine if air carriers have modified policies, in
   accordance with the Act, to retain pilot records for the new, centralized
   electronic pilot records database.

5. In developing the Pilot Records Database, require training records for all
   unsatisfactory pilot evaluation events to include written comments from the
   examiner to aid in identifying specific performance deficiencies.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on October 22, 2012, and received its
response on December 27, 2012. FAA’s response is included in its entirety as an
appendix to this report. FAA concurred or partially concurred with all of our
recommendations. Based on FAA’s response, we consider recommendations 3 and
4 resolved but open pending completion of planned actions. However, FAA’s
responses did not meet the full intent of recommendations 1, 2, and 5, as detailed
below.

FAA requested that we close recommendation 1 based on the high rate of air
carrier participation in voluntary safety programs and its plans to require that all
air carriers implement a SMS. While we recognize the significant progress in
advancing these programs at mainline and regional air carriers, we note that
implementation at smaller carriers—those with 15 or fewer aircraft —is lagging.
This is a notable concern given that smaller carriers make up nearly half of all Part
121 operating airlines. While FAA submitted to Congress a required plan to help
establish voluntary programs at smaller carriers, the Agency has yet to fully
implement this plan. Without a more targeted approach that demonstrates the
benefits of such programs to smaller carriers, the Agency will be hard pressed to
increase participation for this segment of the industry. Therefore, we ask that the
                                                                                 17


Agency either implement its plan in its entirety or provide an alternative action
that would fully meet the intent of our recommendation.

FAA partially concurred with recommendation 2, but did not agree to gather and
analyze data on the number of Part 121 pilots that currently do not meet the newer
and more stringent airman qualification standards. Rather, in its response FAA
contends that its ongoing communication with industry and its data assessment
performed during the NPRM comment period is sufficient to meet the intent of our
recommendation. We recognize that FAA should prioritize the actions needed for
issuance of the final rule on pilot qualifications before August 1, 2013. However,
while FAA has provided information to air carriers and inspectors regarding the
Act’s requirements for revised ATP certification, the Agency has not
demonstrated that the industry can fully transition to the new pilot requirements by
that date. Because the uncertainty surrounding this element of the Act continues to
be of significant concern, we request that FAA reconsider its position and provide
data regarding the number of Part 121 pilots that currently do not meet the
heightened qualifications, as well as how many air carriers have not modified their
training programs to ensure pilots will meet the enhanced requirements by
August 1, 2013.

FAA concurred with recommendation 5, but the Agency’s proposed action does
not meet the full intent of our recommendation. We recommended that FAA
require that the training records for all unsatisfactory pilot evaluations include
examiner comments. While FAA plans to require that any comments contained in
pilot evaluation records be included in the database, this will not address our
concern that air carriers may not capture examiner comments during the
evaluation. As we noted in our report, some FAA officials are concerned that air
carriers may be reluctant to create an official record of a pilot’s poor performance
through written comments. However, without these comments, air carriers and
FAA may not be able to identify pilots with specific performance deficiencies to
ensure they get the additional training they need. Accordingly, we consider
recommendation 5 open and unresolved and request that the Agency propose
additional actions to meet the intent of our recommendation.

ACTIONS REQUIRED
FAA’s planned actions for recommendations 3 and 4 are responsive, and we
consider these recommendations resolved but open pending completion of the
planned actions. For recommendations 1, 2, and 5, we request that FAA either
provide additional information or reconsider its position as described above. In
accordance with Department of Transportation Order 8000.1C, we request that
FAA provide this additional information within 30 days of this report.
                                                                            18


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Tina Nysted, Program Director, at (404) 562-3770.

                                      #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                  19


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from June 2011 through October 2012 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To assess FAA and industry progress implementing sections of the Airline Safety
Act, we met with Flight Standards and other officials at FAA headquarters who
are responsible for required actions and oversight of Airline Safety Act initiatives.
We visited nine air carriers representing mainline, regional, supplemental, and
cargo operators, along with their respective FAA oversight offices, and
interviewed 31 FAA inspectors.

The nine air carriers were selected based on the Part 121 and 121/135 carriers
identified in FAA’s Voluntary Safety Programs report to Congress (Response to
P.L. 111-216, Sec. 213, dated January 28, 2011). The three air carriers and FAA
oversight offices we visited in the survey phase of our audit were selected based
on location and their classification as a Part 121 air carrier and represented two
types of operations (mainline and regional). For the six carriers we visited during
the verification phase of our audit, the Office of Inspector General statistician
developed a sample from the 32 Part 121 air carriers with no voluntary safety
programs identified in FAA’s January 2011 report to Congress. We also
interviewed representatives from five industry associations and trade groups who
represent the interests of major, regional, supplemental, and cargo air carriers and
airline pilots to obtain their input regarding progress and challenges identified for
FAA and industry implementing specific sections of the Airline Safety Act.

To determine the progress and specific challenges associated with the
development of the new, centralized electronic pilot records database, we
interviewed FAA pilot records branch personnel in Oklahoma City, OK,
responsible for the storage of these records and for development of related policy.




Exhibit A. Scope and Methodology
                                                                                           20


EXHIBIT B. STATUS OF AIRLINE SAFETY ACT MILESTONES

Section Initiative                   Milestone         Deadline         Milestone Status
  202   NTSB Recommendations         Report             Annual          Met, On-Target
        Report
  203   FAA Pilot Records Database   Database          10/30/2010              Met
                                     Development
                                     Report             2/1/2012     Completed Late – 2/24/12
 204    Air Carrier Safety & Pilot   ARC Report        7/31/2011              Met
        Training ARC                 ARC Report        7/31/2012              Met
 205    FAA Inspector Staffing       Start OIG          5/1/2011              Met
                                     Review
 206    Mentoring, Development,      NPRM                8/1/2011       Missed & Overdue
        and Leadership               Final Rule          8/1/2013       To Be Determined
 207    Crew Pairing and CRM         Study               8/1/2011   Completed Late – 8/26/2011
 208    NTSB Training                ARC Formation     11/30/2010              Met
        Recommendations              NPRM                8/1/2011              Met
                                     ARC report        11/30/2011    Completed Late –3/7/2012
                                     Final Rule          8/1/2013       To Be Determined
 209    FAA Rulemaking on            ARC Formation      9/30/2010       Completed Late –
        Training                                                           11/16/2010
                                     ARC Report         8/1/2011    Completed Late – 9/23/2011
                                     Final Rule        10/1/2011        Missed & Overdue
 210    Code Share Ticket            Amend 49             N/A                  Met
        Disclosure                   U.S.C. § 41712
 211    FAA Safety Inspections       Perform one per    Annual           Met & On-Target
                                     year
 212    Fatigue & Commuting          NPRM               2/1/2011              Met
                                     Final Rule         8/1/2011    Completed Late – 1/4/2012
                                     Risk              11/1/2010              Met
                                     Management
                                     Plans
                                     Start Study       9/30/2010               Met
                                     Preliminary       1/30/2011               Met
                                     Findings
                                     Report            6/30/2011              Met
 213    Voluntary Safety Programs    Report            1/28/2011    Completed Late – 3/16/2011
 214    ASAP & FOQA                  Plans Issued      1/28/2011    Completed Late – 4/14/2011
        Implementation               Plans              8/1/2011      FOQA Portion Overdue
                                     Implemented
 215    Safety Management Systems    NPRM              11/1/2010              Met
                                     Final Rule         8/1/2012       Missed & Overdue
 216    Screening & Qualifications   NPRM              1/28/2011    Completed Late - 2/29/2012
                                     Final Rule         8/1/2012       Missed & Overdue
                                     ATP                8/1/2013       To Be Determined
 217    ATP Certification            Final Rule         8/1/2013       To Be Determined




Exhibit B. Status of Airline Safety Act Milestones
                                                                        21


EXHIBIT C. ORGANIZATIONS VISITED OR CONTACTED
Federal Aviation Administration (FAA) Headquarters:
Flight Standards Service                            Washington, DC
Pilot Records Branch                                Oklahoma City, OK

FAA Certificate Management Offices (CMO):
Phoenix CMO                                         Phoenix, AZ
Portland CMO                                        Hillsboro, OR
South Florida CMO                                   Miramar, FL
United Air Lines CMO                                Aurora, CO

FAA Certificate Management Units (CMU) at Flight Standards District
Offices (FSDO):
Cape Air CMU at Boston FSDO                         Lexington, MA
Comair CMU at Louisville FSDO                       Louisville, KY
Kalitta Air CMU at Detroit FSDO                     Belleville, MI
PSA CMU at Cincinnati FSDO                          Cincinnati, OH
USA Jet CMU at East Michigan FSDO                   Belleville, MI

Air Carriers:
Cape Air/Hyannis Air Service                        Hyannis, MA
Comair                                              Erlanger, KY
Evergreen International Airlines                    McMinnville, OR
Florida West International Airways                  Miami, FL
Kalitta Air                                         Ypsilanti, MI
PSA Airlines                                        Vandalia, OH
Sierra Pacific Airlines                             Tucson, AZ
United Airlines                                     Denver, CO
USA Jet Airlines                                    Belleville, MI

Industry Representatives or Organizations:
Airlines For America (A4A)                           Washington, DC
       Previously known as Air Transport Association (ATA)
Regional Airline Association (RAA)                    Washington, DC
Air Line Pilots Association (ALPA)                    Washington, DC
National Air Carrier Association (NACA)               Washington, DC
Cargo Airline Association (CAA)                       Washington, DC




Exhibit C. Organizations Visited or Contacted
                                                                  22


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                           Title

Tina Nysted                                    Program Director

Travis Wiley                                   Project Manager

Stefanie McCans                                Senior Analyst

Curt Boettcher                                 Senior Analyst

Marshall Anderson                              Senior Analyst

Aiesha Gillespie                               Analyst

Audre Azuolas                                  Writer/Editor

Megha Joshipura                                Statistician




Exhibit D. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                        23



                   Federal Aviation
                   Administration

Memorandum
Date:      December 27, 2012
To:        Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
           Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Response to Office of Inspector General (OIG) Draft Report—Airline Safety Act


The Federal Aviation Administration (FAA) has implemented many elements of the Airline
Safety and Pilot Training Act of 2010 (the Act), which are key to improving safety in
commercial airline travel by raising standards in pilot training and performance as well as
advancing voluntary programs that yield critical safety information.

The FAA wrote and delivered seven reports to Congress, initiated five rulemaking projects,
and continued rulemaking efforts for another four final rules as a result of the Act. The FAA
is continuing to develop rule-making initiatives and policy changes in response to the Act.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Fully implement the Act-required ASAP and FOQA plan that assists
smaller carriers in developing these safety programs.

FAA Response: Concur. In our report to Congress, the FAA noted it had a range of options
available to promote Aviation Safety Action Program (ASAP) and Flight Operational Quality
Assurance (FOQA), depending on budget and resource availability. The FAA has
implemented this plan by improving the functionality of the Web-Based Access Tool
(WBAT) and continuing to host ASAP-FOQA Information-Sharing meetings with the
industry, which have been effective. Participation in FAA’s voluntary programs is at an all
time high. In September of 2010, 69% of part 121 operators participated in at least one
voluntary program (ASAP, FOQA, Advanced Qualification Program [AQP), Line Operations
Safety Audit [LOSA]). Today over 80% participate and virtually 100% of the “mainline” and
“regional” air carriers participate in at least one voluntary program, and most participate in
several voluntary programs. As of October 16, 2012, 78% of part 121 air carriers participate
in ASAP and 48% participate in FOQA.

Furthermore, the FAA will require each part 121 air carrier to implement a safety
management system (SMS). A SMS is a comprehensive, process-oriented approach to


Appendix. Agency Comments
                                                                                                     24


managing safety throughout an organization. A SMS includes an organization-wide safety
policy; formal methods for identifying hazards, controlling, and continually assessing risk;
and promotion of a safety culture. SMS stresses not only compliance with technical standards
but also increased emphasis on the overall safety performance of the organization. SMS's
proactive emphasis on hazard identification and mitigation, and on communication of safety
issues, provides certificate holders robust tools to improve safety, regardless of the size of the
operator. The FAA submitted to Congress a copy of the implementation plan required under Section
214 of the Act. Therefore, the FAA has met the intent of this recommendation and requests that
it be closed.

Recommendation 2: Determine how many part 121 pilots currently do not meet the
heightened qualification standards required by the Act, and assess the data for the potential
impact on FAA and air carrier operations.

FAA Response: Partially Concur. The FAA has communicated regularly with aviation
industry stakeholders to facilitate compliance with the requirements of the Act, beginning
with Information for Operators 10024, Airline Transport Pilot (ATP) Certificate Requirement
for Pilots in Part 121 Operations, and dated 12/15/2010. Additionally, on 4/17/2012, the FAA
issued Notice 8900.184, Incorporation of ATP Certification into an Air Carrier SIC Training
Program, to provide guidance to principal operations inspectors (POIs) with oversight
responsibilities of Title 14 of the Code of Federal Regulations (14 CFR) part 121 certificate
holders on incorporating airline transport pilot (ATP) certification into an air carrier second-
in-command (SIC) training program. In addition to recurrent training programs, air carriers
have revised new-hire training to incorporate the new requirements. Through its ongoing
conversations with industry groups, the FAA considers that industry has qualified nearly half
of the pilots needing an ATP as of October 2012. Most carriers are aware of the self-
enactment date of the regulation and began their mitigation steps early enough to meet the
August 1, 2013 deadline.

The FAA assessed the data collected during the comment period for the Pilot Certification and
Qualification notice of proposed rulemaking (NPRM) regarding the number of Part 121 pilots
that at that time did not meet the heightened qualification standards required by the Act. At
that time, FAA determined that the workload increased for some inspectors, but the work has
been spread over such a timeframe that existing resources are available to accommodate the
additional workload.

Recommendation #3: Develop and communicate with key stakeholders the status of major
milestones, including the proposed rule, to improve timeliness and accountability for
implementing the new Pilot Record Database.

FAA Response: Concur. The focus of the FAA to date has been on the development of a
prototype database system to answer questions on how the paper based Pilot Records
Improvement Act of 1996 (PRIA) system can be automated. In addition, the implementation
team has been developing an action plan with a list of activities and dates for the database
delivery and the associated rulemaking activities. Once the action plan has been approved,
correspondence will be issued to communicate the milestones for the project to all industry
stakeholders.


Appendix. Agency Comments
                                                                                                   25


Despite focusing on these priorities, the agency has also issued two documents to
communicate with operators and others in industry on pilot records. The Flight Standards
Service (AFS) issued an Information for Operators memorandum (InFO #11014) on August
15, 2011 to inform operators of their responsibility under the new law to retain records for the
database. AFS also issued updated guidance (AC 120-68-F) on May 31, 2012 for the PRIA.
Updates to the paper based PRIA system are currently being implemented to assist with the
conversion to the Pilot Record Database (PRD) system and should be completed by December
31, 2013.

Recommendation 4: Require inspectors to determine if air carriers have modified policies,
in accordance with the Act, to retain pilot records for the new, centralized electronic pilot
record database.

FAA Response: Concur. InFO #11014, as stated in our response to recommendation 3, was
issued to inform operators of their responsibility under the new law to retain records for the
database. The FAA will conduct spot checks in order to examine airline policy guidance to
ensure carriers have taken steps to comply with the intent of the Act. The FAA has met the
intent of this recommendation and request that this recommendation be closed.

Recommendation 5: In developing the Pilot Records Database, require training records for
all unsatisfactory pilot evaluation events to include written comments from the examiner to
aid in identifying specific performance deficiencies.

FAA Response: Concur. The database will include a text block for the entry of examiner
comments as stipulated by the statute. This will allow for the entry of comments that are
made by an examiner whether the evaluation event was determined to be satisfactory or
unsatisfactory. The intent is to capture any comments that an examiner deemed important and
to include these in the pilot's PRD history. Any comment that is recorded as part of an
evaluation on the paper based form or within an air carrier's automated system will be
required for entry in the PRD system. The database should be completed by December 31,
2013.




Appendix. Agency Comments
